                                                                 Issue Date
                                                                        February 28, 2012
                                                                 Audit Report Number
                                                                        2012-FW-1004




TO:        Charles S. Coulter
           Deputy Assistant Secretary for Single Family Housing, HU

           //signed//
FROM:      Gerald R. Kirkland
           Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT: PrimeLending Mortgage, LLP, Plano, TX, Did Not Always Follow HUD-FHA
            Underwriting Requirements for 12 of 20 Loans Reviewed


                                   HIGHLIGHTS

 What We Audited and Why

            We performed an audit of PrimeLending, A PlainsCaptial Company, located in
            Dallas, TX, a Federal Housing Administration (FHA) direct endorsement lender.
            We selected PrimeLending for audit because of its high default rate in the
            Houston, Dallas, and Fort Worth, TX, offices as compared to the average default
            rate for all FHA loans in those areas. Our objective was to determine whether
            PrimeLending complied with U. S. Department of Housing and Urban
            Development (HUD) and FHA loan origination requirements for loans endorsed
            between April 1, 2009, and May 31, 2011.

 What We Found


            PrimeLending did not always follow HUD-FHA underwriting requirements for 12
            of 20 loans reviewed. This noncompliance occurred because PrimeLending
            misunderstood FHA guidance, it failed to exercise due diligence in underwriting
            the loans, and its internal control system did not detect or prevent the origination
            of those loans. As a result, PrimeLending improperly originated 2 loans that
            resulted in losses to FHA’s Mutual Mortgage Insurance Fund of $103,013 and 10
            loans that increased the risk to the insurance fund by more than $845,000.
                 Further, Prime Lending caused HUD-FHA to pay $110,343 in claims on eight
                 ineligible loans.

    What We Recommend


                 We recommend that the Deputy Assistant Secretary for Single Family Housing
                 require PrimeLending to (1) reimburse the FHA insurance fund $103,013 in
                 actual losses on 2 loans; (2) indemnify 10 loans that placed the FHA insurance
                 fund at unnecessary risk with unpaid balances of more than $1.6 million, thereby
                 putting an estimated $845,763 1 in funds put to better use; (3) repay $110,343 in
                 claims paid on 8 loans; and (4) ensure that it accurately enters information into
                 HUD’s Neighborhood Watch system and correct the data errors cited in this
                 report.

                 For each recommendation without a management decision, please respond and
                 provide status reports in accordance with HUD Handbook 2000.06, REV-4.
                 Please furnish us copies of any correspondence or directives issued because of the
                 audit.

    Auditee’s Response


                 We provided our discussion draft to PrimeLending on January 24, 2012, and held
                 the exit conference on January 31, 2012. PrimeLending provided its response on
                 February 9, 2012. PrimeLending generally disagreed with the findings.

                 The complete text of the auditee’s response, along with our evaluation of that
                 response, can be found in appendix B of this report.




1
     According to the Single Family Acquired Asset Management System’s case management profit and loss by
     acquisition as of September 2010, FHA’s average loan loss experience is about 59 percent of the unpaid
     principal balance upon sale of a mortgaged property.


                                                       2
                             TABLE OF CONTENTS

Background and Objective                                                     4

Results of Audit
        Finding:   PrimeLending Did Not Always Follow HUD-FHA Underwriting   5
                   Requirements for 12 of 20 Loans Reviewed

Scope and Methodology                                                        11

Internal Controls                                                            12

Appendixes
   A.   Schedule of Questioned Costs and Funds To Be Put to Better Use       13
   B.   Auditee Comments and OIG’s Evaluation                                14
   C.   Summary Data for Loans Reviewed                                      28
   D.   Case Narratives                                                      29




                                             3
                          BACKGROUND AND OBJECTIVE

PrimeLending, a PlainsCapital Company, is a residential mortgage originator licensed to
originate and close loans in 50 States and the District of Columbia. As of December 31, 2010, it
operated from 205 locations in 33 States. PrimeLending was approved by the U. S. Department
of Housing and Urban Development (HUD) to originate Federal Housing Administration (FHA)-
approved mortgage loans on February 13, 1990. It primarily originates single-family residential
loans to customers in its 205 offices. After originating loans, PrimeLending sells the loans on
the secondary market; thus, it does not service the loans.

HUD’s direct endorsement program simplified the process for obtaining FHA mortgage
insurance by allowing lenders to underwrite and close the mortgage loan without prior HUD
review or approval. PrimeLending was responsible for complying with all applicable HUD-FHA
regulations and was required to evaluate the borrower’s ability and willingness to repay the
mortgage debt. It was protected against loss from default by FHA’s Mutual Mortgage Insurance
Fund, which is funded by borrowers’ premiums. FHA’s mortgage insurance programs help low-
and moderate-income families become homeowners by lowering some of the costs of their
mortgage loans. FHA mortgage insurance also encourages lenders to approve mortgages for
otherwise creditworthy borrowers who might not be able to meet conventional underwriting
requirements by protecting the lender against loss from default.

According to HUD’s Neighborhood Watch system, 2 from May 1, 2009, to April 20, 2011,
PrimeLending originated a total of 8,559 FHA loans in the Houston, Dallas, and Fort Worth
areas. During the same period, 134 of the loans with a total origination value of more than $15
million defaulted within the first year. 3

Our objective was to determine whether PrimeLending followed HUD-FHA loan origination
requirements for loans endorsed between April 1, 2009, and May 31, 2011.




2
    Neighborhood Watch refers to a Web-based software application that displays loan performance data for
    lenders and appraisers using FHA insured single family loan information. The system is designed to highlight
    exceptions so that potential problems are readily identifiable.
3
    HUD defines a default as the inability to make timely monthly mortgage payments or otherwise comply with
    mortgage terms. A loan is considered in default when no payment has been made 30 days after the due date.
    Once a loan is in default, the lender may exercise legal rights defined in the contract to begin foreclosure
    proceedings.


                                                        4
                                 RESULTS OF AUDIT

Finding: PrimeLending Did Not Always Follow HUD-FHA
         Underwriting Requirements for 12 of 20 Loans Reviewed
PrimeLending did not always follow HUD-FHA requirements for 12 of 20 loans reviewed.
Some of the loans contained multiple underwriting deficiencies. This noncompliance occurred
because PrimeLending misunderstood FHA guidance, it failed to exercise due diligence in
underwriting the loans, and its internal control system did not detect or prevent the origination of
those loans. As a result, PrimeLending improperly originated 2 loans that resulted in losses to
FHA’s insurance fund of $103,013 and 10 loans that increased the risk to the insurance fund by
more than $845,000. Further, it caused HUD-FHA to pay $110,343 in claims on eight ineligible
loans.



 PrimeLending Did Not Follow
 HUD-FHA Requirements

                  PrimeLending did not follow HUD-FHA requirements for 12 of 20 loans
                  reviewed. Some loans contained multiple deficiencies. Specifically,
                  PrimeLending did not

                    •   Manually underwrite, as required, seven loans when borrowers’ credit
                        reports contained disputed items;
                    •   Properly review four appraisals;
                    •   Address asset or debt deficiencies for four loans;
                    •   Complete one loan application correctly; and
                    •   Obtain required payroll documentation for one loan.

               Further, PrimeLending did not obtain a credit report, as required by its quality
               control plan, for a loan that defaulted within six payments. Lastly, PrimeLending
               incorrectly entered loan data for 16 of 86 (21 percent) loans into HUD’s
               Neighborhood Watch system.

               The following table shows a summary of the loan deficiencies. Appendix D
               contains case narratives describing the underwriting deficiencies for the 12 loans.




                                                 5
         Underwriting deficiencies by loan
           Case         Disputed        Appraisal not         Debt & asset         Other
          number        accounts           reviewed           deficiencies       deficiencies


        511-0153486                              x
        492-8717246                              x
        493-9082225           x
        492-8705878           x
        491-9600782           x                  x                  x
        493-9572318                                                 x
        492-8492165                                                 x                  x
        511-0178080           x
        492-8634079           x
        511-0074780           x                  x
        493-9219962           x
        493-9075326                                                 x
        Totals                7                  4                  4                  1


    PrimeLending Did Not
    Manually Underwrite Loans
    When Credit Reports
    Contained Disputed Items

                  For 7 of the 20 loans reviewed (35 percent), PrimeLending did not
                  manually underwrite loans when the borrower’s credit report contained
                  disputed items. FHA requirements state that any credit report containing
                  disputed items must be manually underwritten. 4 HUD-FHA reaffirmed to
                  PrimeLending in a letter, dated June 10, 2010, 5 that credit reports
                  containing disputed items required manual underwriting instead of
                  automated underwriting. Prior to the letter dated June 10, 2010,
                  PrimeLending did not require loans with disputed items to be manually
                  underwritten, only that the loans be reviewed by an underwriter before
                  closing. Two loans in our review contained disputed items after HUD-
                  FHA notified PrimeLending. These loans closed from 8 to 9 days after
                  PrimeLending received the HUD-FHA notification. Because manual
                  underwriting guidelines are generally more stringent than automated
                  underwriting, it was unknown whether the loans would have qualified for
                  FHA insurance as PrimeLending did not manually underwrite the loans.




4
     FHA’s Technology Open To Approved Lenders (TOTAL) Mortgage Scorecard User Guide, page 21
5
     PrimeLending received the letter on June 21, 2010.


                                                     6
    PrimeLending Did Not
    Properly Review Appraisals


                 PrimeLending did not properly review four appraisals. 6 Specifically, it did not
                 review the appropriateness of the appraisers’ deductions for the difference in the
                 number of rooms, site size, or condition of properties for three loans; did not
                 question appraised values for other loans.

                 For three loans, the appraiser did not make deductions for the difference in the
                 number of rooms or for the site size and did not consistently deduct for the
                 average condition of the sales property and the comparable properties.

                 For one loan, the appraiser valued the subject property at $76 per square foot.
                 The appraiser valued the comparables at $57, $66, and $60, respectively (see
                 pictures 1 through 4). If PrimeLending had reviewed the appraisal, it might have
                 questioned the valuation per square foot of the properties based upon the pictures.
                 The appraisal explained some of the $26,598 increase in price from the property’s
                 previous sale of $35,162 in March 2007 as a kitchen upgrade, new heating and air
                 conditioning, windows, siding, doors, and insulation. According to the January
                 2010 appraisal, the value of the property in picture 1 increased 76 percent from
                 March 2007 to January 2010. PrimeLending originated the loan with FHA
                 insurance for $61,760 in January 2010. After foreclosure, this property sold for
                 $42,943 in April 2011, with a loss to HUD of $33,686.




               Picture 1: Subject property valued at $76 per   Picture 2: Comparable 1 valued at $57 per
               square foot                                     square foot




6
     HUD Handbook 4155.2, chapter 4-1, paragraph (e)


                                                        7
                Picture 3: Comparable 2 valued at $66 per         Picture 4: Comparable 3 valued at $60 per
                square foot                                       square foot



    Four Loans Had Debt and Asset
    Deficiencies

                  PrimeLending Did Not Include Credit Card Debt in Debt-to-Income Ratios
                  PrimeLending did not include some credit card debt for two loans. It was
                  responsible for including and reviewing all debt. 7 For one loan, PrimeLending
                  did not include $1,292 in credit card debt. The borrower’s debt-to-income ratio
                  totaled 56 percent without the credit card debt and 58 percent including the credit
                  card debt. The desktop underwriting findings report noted the omission and
                  required PrimeLending to support excluding the debt. The file contained no such
                  documentation.

                  For another loan, the borrower’s credit report contained credit card debt of
                  $2,039. The destktop underwriting findings report required PrimeLending to
                  support the payoff of the debt. The file did not contain payoff evidence before
                  closing. PrimeLending should not have closed this loan without the payoff
                  evidence.

                  PrimeLending Showed a Secondary Lien as a Gift
                  PrimeLending showed a secondary lien from the Texas Department of Housing
                  and Community Affairs as a gift and in the reserves on the desktop underwriter
                  report. This report overstated the assets of the borrower. HUD-FHA regulations
                  prohibit the inclusion of secondary financing as a gift. 8 Without the inclusion of
                  the secondary lien, the borrower maintained only $840 in reserves. 9 The
                  borrower’s debt-to-income ratio including the house payment was at 48 percent
                  without the secondary lien. Although, FHA does not require a reserve amount for


7
     FHA’s TOTAL Mortgage Scorecard User Guide, page 9
8
     TOTAL Mortgage Scorecard User Guide, page 18
9
     This amount includes what the borrower maintained in her checking and savings accounts after reducing the
     accounts by the amount of funds needed to close.


                                                        8
                   single family loans, the TOTAL Mortgage Scorecard 10 manual stated that it used
                   the borrower’s reserves as an element for evaluating the borrower. PrimeLending
                   used inaccurate information in obtaining TOTAL Mortgage Scorecard approval.

                   A Coborrower Showed the Purchased Property as an Asset on the
                   Application
                   The coborrowers’ assets on the loan application included the property purchased.
                   By including the purchased asset, the coborrowers’ asset-to-liability amounts
                   increased. PrimeLending stated that it was a data entry error. With the inclusion
                   of the purchased property in the total assets, the coborrowers’ net assets totaled
                   $141,985, and without the inclusion of the purchased property in the net worth,
                   the coborrowers’ net worth totaled $2,985. Since TOTAL Mortgage Scorecard
                   uses a combination of items to underwrite loans, this inaccurate information
                   invalidated the approval.


     Other Loan Deficiencies Noted


                   For loan number 492-8492165, PrimeLending marked both the initial and final
                   loan applications incorrectly. The loan applications showed that the coborrowers
                   would be owner occupants, but they never intended to reside at the property as it
                   was purchased for the mother of a coborrower. The coborrowers had already
                   received an FHA loan on the property they occupied. PrimeLending stated that it
                   knew about the coborrowers’ intent and incorrectly marked the loan applications.

                   For this same loan, FHA’s loan file contained only one 2-week payroll
                   documentation, a duplicate of that 2-week payroll documentation, and a
                   verification of current employment. The desktop finding report required
                   documentation of 1 full month’s earnings followed by current employment
                   verification. PrimeLending stated that a data entry error caused it to obtain only
                   the 2-week payroll instead of the full month’s payroll documentation as required.

     Other Quality Control
     Deficiencies Were Noted


                   PrimeLending Did Not Obtain a Required Credit Report
                   For the loans reviewed, PrimeLending did not obtain a required credit report
                   during the early default review for one loan. PrimeLending’s January 2010
                   quality control plan required obtaining a credit report for loans that default within
                   the first 6 months. PrimeLending stated that it obtained a report but did not

10
      FHA’s TOTAL Mortgage Scorecard evaluates the overall creditworthiness of the applicants based on a number
      of credit variables and indicates a recommended level of underwriting and documentation to determine a loan’s
      eligibility for insurance by FHA.


                                                          9
             upload the report to the file. Because of the age of the report, the credit reporting
             company could not recreate it. There was no documentation showing that
             PrimeLending obtained the credit report as required.

             PrimeLending Did Not Ensure the Accuracy of Neighborhood Watch Data
             Information in HUD’s Neighborhood Watch system showed that the audit sample
             included some manually underwritten loans. Although HUD’s data system
             showed the loans as manually underwritten, PrimeLending provided
             documentation showing that 16 of 86 (21 percent) of the manually underwritten
             loans shown in Neighborhood Watch were originated by TOTAL Mortgage
             Scorecard. PrimeLending stated that its servicer entered the information
             incorrectly.


Conclusion

             PrimeLending did not follow HUD-FHA requirements for 12 of 20 loans
             reviewed. Three loans contained multiple underwriting deficiencies. This
             noncompliance occurred because PrimeLending misunderstood FHA guidance, it
             failed to exercise due diligence in underwriting the loans, and its internal control
             system did not detect or prevent the origination of those loans. As a result,
             PrimeLending improperly originated 2 loans that resulted in losses to FHA’s
             insurance fund of $103,013 and 10 loans that increased the risk to the insurance
             fund by more than $1 million. Further, PrimeLending caused HUD-FHA to pay
             $110,343 in claims on eight ineligible loans.

Recommendations

             We recommend that the Deputy Assistant Secretary of Single Family Housing
             require PrimeLending to

             1A. Reimburse the FHA insurance fund $103,013 for losses incurred on loan
                 numbers 492-8717246 and 511-0153486.

             1B. Indemnify HUD for 10 insured loans with unpaid principal balances of
                 $1,433,497, thereby putting an estimated $845,763 to better use based on the
                 FHA insurance fund average loss rate of 59 percent of the unpaid principal
                 balances (see appendix C).

             1C. Repay the FHA insurance fund $110,343 for claims paid as of November 30,
                 2011, or the current total amount of claims paid on eight loans (see appendix
                 C).

             1D. Establish a policy to ensure data is entered accurately and correct the data
                 errors cited in this report.



                                              10
                               SCOPE AND METHODOLOGY

We performed our fieldwork between June 28 and November 29, 2011, at PrimeLending’s Dallas
and Bedford, TX, offices and our offices in Fort Worth and Houston, TX.

To accomplish our objective, we

     •   Reviewed applicable HUD-FHA regulations, requirements, and mortgagee letters;
     •   Reviewed reports and information on HUD’s Neighborhood Watch and Single Family Data
         Warehouse systems;11
     •   Reviewed PrimeLending’s files, quality control plans, early default reports, independent
         audit reports, correspondence with HUD, and a consent order, dated January 11, 2011;
     •   Conducted interviews with applicable PrimeLending staff; and
     •   Conducted onsite visits to 20 properties and conducted 10 interviews with borrowers.

Using HUD’s Neighborhood Watch system, we determined which FHA lender originated defaulted
loans in the Houston, Dallas, and Fort Worth, TX offices. We obtained a download of defaulted
loans originated and endorsed by PrimeLending in these offices from May 1, 2009, to
April 30, 2011. We determined that PrimeLending originated a total of 8,559 loans in the Houston,
Dallas and Fort Worth offices during the audit scope of which 134 defaulted. The original loan
value of the 134 defaulted loans totaled $19,706,488. We selected a random nonstatistical sample
of 20 loans that defaulted within the first 6 months, were manually underwritten, a refinance, or
HUD maintained a paper copy of the loan file. The original loan values totaled more than $2.5
million. We reviewed the loan documents for each of the 20 selected loans. We used a
nonstatistical random sample because we wanted to determine what types of errors might exist and
did not intend to project the test results to the population of the loans. We did not evaluate the
reliability of HUD’s Neighborhood Watch or Single Family Data Warehouse systems because we
use the data for background purposes only.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.




11
     Single Family Data Warehouse is a large and extensive collection of database tables organized and dedicated to
     support the analysis, verification, and publication of single-family data. It consists of database tables structured
     to provide HUD user’s easy and efficient access to single family housing case-level data on properties and
     associated loans, insurance, claims, defaults, and demographics.


                                                           11
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

     •   Effectiveness and efficiency of operations,
     •   Reliability of financial reporting, and
     •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

               •   Policies and procedures intended to ensure that FHA insured loans are properly
                   originated, underwritten, and closed.
               •   Safeguarding FHA insured mortgages from high-risk exposure.
               •   Policies and procedures intended to ensure that the quality control program is an
                   effective tool in reducing underwriting errors and noncompliance.

               We assessed the relevant controls identified above.

               A deficiency in internal controls exists when the design or operation of a control
               does not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiency


               Based on our review, we believe that the following item is a significant deficiency:

               •   PrimeLending did not have effective controls in place to ensure that its
                   underwriters complied with HUD loan origination and underwriting
                   requirements (finding).


                                                 12
                                             APPENDIXES

Appendix A

                    SCHEDULE OF QUESTIONED COSTS
                   AND FUNDS TO BE PUT TO BETTER USE

                     Recommendation                Ineligible 1/         Funds to be put to
                         number                                            better use 2/
                              1A                    $103,013
                              1B                                               $845,763
                              1C                      110,343

                            Totals                  $213,356                   $845,763




1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity that the auditor
     believes are not allowable by law; contract; or Federal, State, or local policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be used more efficiently if
     an Office of Inspector General (OIG) recommendation is implemented. These amounts include reductions in
     outlays, deobligation of funds, withdrawal of interest, costs not incurred by implementing recommended
     improvements, avoidance of unnecessary expenditures noted in preaward reviews, and any other savings that
     are specifically identified. In this instance, implementation of recommendation 1B will reduce FHA’s risk of
     loss to the insurance fund for the 10 loans by $845,763 based on FHA’s fiscal year 2010 average loss
     experience of 59 percent of the unpaid principal balance.




                                                         13
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         14
Comment 2




Comment 3




            15
16
Comment 2




            17
18
Comment 4




            19
20
Comment 5




            21
Comment 6




            22
Comment 7




Comment 8




            23
Comment 9




            24
25
                         OIG Evaluation of Auditee Comments


Comment 1   We appreciate the efforts taken by PrimeLending to comply with FHA
            requirements.

Comment 2   We removed one of the loans based upon information provided by PrimeLending
            making it seven loans or 35 percent of our sample and revised the finding
            accordingly.

Comment 3   We disagree with PrimeLending that it complied with the requirement to
            manually underwrite loans that contained disputed items. PrimeLending
            contended that HUD only required an underwriter to review a loan that contained
            disputed items. It further contended that all its loans were reviewed by an
            underwriter. However, it did not define what exactly the underwriter reviewed or
            how this differed from manually underwriting the loans. As stated in the finding,
            HUD affirmed to PrimeLending that loans with disputed items should be
            manually underwritten. HUD’s manual underwriting requirements are more
            stringent than TOTAL scorecard requirements. For example, PrimeLending
            would have had to comply with HUD’s regulations on compensating factor in
            manually underwriting these loans. Specifically, in four instances, the borrowers
            had back end ratios that exceed 43 percent with two exceeding 50 percent. In six
            of the seven instances, the front end ratio exceeded 31 percent with one exceeding
            40 percent. PrimeLending should have obtained additional information before
            making the decision on whether to approve these loans for FHA insurance. In
            these seven instances, we are not asserting that PrimeLending as underwriter
            made a “poor” decision in approving these loans, but rather that PrimeLending
            did not do what it was required to do before making its decision. Therefore,
            PrimeLending did not support its underwriting decision.

Comment 4   We considered PrimeLending’s comments and made adjustments to findings and
            case narratives as appropriate. PrimeLending stated that it does not normally rely
            on photographs of the property to determine value. However, the photographs in
            the report visually represent the differences in the subject property and the
            comparables. With respect to the adjustments for square footage and room count,
            the appraisals were not consistent and seemed to favor a higher value for the
            subject property.

Comment 5   TOTAL scorecard approval on loans did not release PrimeLending from any and
            all documentation requirements. Contrary to PrimeLending statements, the
            TOTAL scorecard manual states, “the lender remains accountable for compliance
            with FHA eligibility requirements as well as for any credit, capacity and
            documentation requirements.” The desktop findings report required that
            PrimeLending obtain evidence or documentation prior to closing, and
            PrimeLending did not obtain the evidence or documentation.




                                            26
            Further, TOTAL Mortgage Scorecard User Guide clearly states that no form of
            secondary financing, with or without payments, is to be shown as a gift.
            PrimeLending entered the secondary lien as a gift in TOTAL scorecard and
            included it as an asset of the borrower as shown on the desktop findings report.
            PrimeLending stated it would not have affected the TOTAL scorecard approval.
            Because PrimeLending obtained incorrect information, it does not know if the
            TOTAL scorecard approval would have been affected or not.

Comment 6   We accept PrimeLending’s statement that it was a mistake. PrimeLending stated
            that it would not have affected the TOTAL scorecard approval. However,
            PrimeLending must support its decision to underwrite a loan with FHA insurance.
            This was one of multiple loan deficiencies with this loan.

Comment 7   Based on documentation provided by PrimeLending, this loan was removed from
            the finding.

Comment 8   It is PrimeLending’s responsibility to ensure that it documents efforts conducted
            in the review of early defaulted loans.

Comment 9   We agree with PrimeLending’s actions to resolve this issue.




                                            27
Appendix C

                 SUMMARY DATA FOR LOANS REVIEWED 12
  Case          Mortgage           Unpaid           HUD            Computed              Claims        Claim type
 number         amount            principal       loss on          benefit of            paid 15
                                   amount          loan 13      indemnification
                                                                         14

511-0153486           $120,280                       $69,327                                           Conveyance
492-8717246            $61,760                      $ 33,686                                           Conveyance
493-9082225           $233,211        $224,592                                $132,510      $ 15,420   Partial
492-8705878           $123,692        $120,863                                $ 71,309      $ 12,036   Partial
491-9600782                                                                                            Special
                      $158,083        $154,268                                $ 91,018      $    200   forbearance
493-9572318                                                                                            Special
                      $136,972        $134,014                                $ 79,068      $    200   forbearance
492-8492165           $163,975        $159,031                                $ 93,828
511-0178080                                                                                            Loan
                      $158,385        $155,638                                $ 91,827      $    750   modification
492-8634079                                                                                            Loan
                      $132,023        $128,393                                $ 75,752      $    750   modification
511-0074780                                                                                            Loan
                                                                                                       modification
                                                                                                       and
                                                                                                       preforeclosure
                                                                                                       sale, loss
                      $131,410        $127,797                                $ 75,400       $80,987   mitigation
493-9219962           $124,503        $120,749                                $ 71,242
493-9075326           $111,836        $108,151                                $ 63,809
Totals              $1,656,130      $1,433,497      $103,013                  $845,763     $ 110,343




12
     Loan information is based on the loan status as of November 30, 2011.
13
     The HUD loss on loan amount was obtained from HUD’s Single Family Acquire Asset Management System.
     This system tracks properties from acquisition to final sale after foreclosure and maintains all accounting data
     associated with the loan.
14
     FHA’s average loss experience is about 59 percent of the $1,433,497 in unpaid principal balance for loans that
     complete the foreclosure process (see footnote 1).
15
     These amounts are ineligible costs that should be repaid to HUD. The loans should not have been approved for
     FHA insurance and, therefore, were not entitled to claim payments. If HUD took title to or sold the properties
     rather than seeking repayment of claims paid, the amount to be repaid should be adjusted to the amount of
     actual loss to FHA.


                                                         28
Appendix D

                                    CASE NARRATIVES

                   Case Narrative – Loan Number 511-0153486

Mortgage amount: $120,280
Date of loan closing: April 23, 2010
Status as of November 30, 2011: Conveyed to insurer
Payments before first default: Two
Total claim paid: $125,035—conveyance
HUD loss: $69,327

Underwriting deficiencies:
     •   Appraisal not reviewed properly

Summary:
Appraisal Not Reviewed Properly
PrimeLending did not properly review the appraisal. The appraisal contained inconsistencies for
the number of rooms and square footage of the condominium even though two of the comparable
properties were the same complex. The price per square foot for similar condominiums in the
same complex used as comparables valued the condominiums at $5 to $9 per square foot less
than the subject property. Further, the adjustment for the difference in square footage appeared
to be low considering that all of the properties had sale prices of more than $100 per square foot.
The appraiser did not make an adjustment for another room and 72 square feet of space and only
made a $3,800 adjustment for 191 more square feet (approximately $20 per square foot) for
another comparable.

Also, the comparables included one property that was a pending sale and one that had an active
listing sale, which HUD discourages. 16 HUD regulations required PrimeLending to properly
review the appraisal. 17




16
     HUD Handbook 4051.2, chapter 4-6, paragraph (A)(4)
17
     HUD Handbook 4155.2, chapter 4-1, paragraph (e)


                                                    29
                Case Narrative – Loan Number 492-8717246
Mortgage amount: $61,760
Date of loan closing: February 17, 2010
Status as of November 30, 2011: Conveyed to insurer
Payments before first default: Zero
Total claim paid: $67,722—conveyance
HUD loss: $33,686

Underwriting deficiencies:
   • Appraisal not properly reviewed

Summary:
Appraisal Not Properly Reviewed
PrimeLending did not properly review the appraisal. The appraiser did not make deductions for
the difference in the number of rooms or for the site size and did not consistently deduct for
average condition. In this instance, the appraiser valued the subject property at $76 per square
foot. The appraiser valued the comparables at $57, $66 and $60, respectively. See pictures 1
through 4 in the body of the report. If PrimeLending had properly reviewed the appraisal, it
should have questioned the square foot value of the properties based upon the pictures. The sales
price of the property increased 76 percent from its previous sale’s price of $35,162 in March
2007. The appraisal stated that some of the $26,598 price increase was due to a kitchen upgrade.
The subject property originated with FHA insurance of $61,760 in February 2010. After
foreclosure, HUD sold the property for $42,943 in April 2011 for a total loss to the insurance
fund of $33,686.

                                                .




                                               30
                  Case Narrative – Loan Number 493-9082225

Mortgage amount: $233,211
Date of loan closing: April 30, 2009
Status as of November 30, 2011: Delinquent
Payments before first default: Three
Total claim paid: $15,420—partial claim
HUD loss: N/A

Underwriting deficiencies:
   • Credit report contained disputed items

Summary:
Borrower’s Credit Report Contained Disputed Items
The borrower’s credit report, dated April 1, 2009, contained four disputed items. FHA required
PrimeLending to manually underwrite loans when the credit report containing disputed items. 18
For instance, if PrimeLending had manually underwritten this loan, it would have had to
document and explain compensating factors associated with exceeding HUD’s underwriting
ratios. For this loan, the front end ratio totaled 39 percent and the back end ratio totaled 56
percent exceeding HUD’s manual underwriting ratio standard of 31 and 43 percent, respectively.
PrimeLending did not manually underwrite this loan as required by the TOTAL scorecard
manual.




18
     TOTAL Mortgage Scorecard User Guide, page 21


                                                    31
                Case Narrative – Loan Number 492-8705878

Mortgage amount: $123,692
Date of loan closing: February 3, 2010
Status as of November 30, 2011: Delinquent
Payments before first default: Two
Total claim paid: $12,036—partial claim
HUD loss: N/A

Underwriting deficiencies:
   • Credit report contained disputed items

Summary:
Borrower’s Credit Report Contained Disputed Items
The borrower’s revised credit report, dated January 2, 2010, contained two disputed items. FHA
required PrimeLending to manually underwrite loans when the credit report containing disputed
items. 19 For instance, if PrimeLending had manually underwritten this loan, it would have had to
document and explain compensating factors associated with exceeding HUD’s underwriting
ratios. For this loan, the front end ratio totaled 36 percent exceeding HUD’s manual
underwriting ratio standard of 31 percent. PrimeLending did not manually underwrite this loan
as required by the TOTAL scorecard manual.




19
     Ibid


                                               32
                  Case Narrative – Loan Number 491-9600782

Mortgage amount: $158,083
Date of loan closing: August 12, 2009
Status as of November 30, 2011: Chapter 13 bankruptcy
Payments before first default: Three
Total claim paid: $200—special forbearance
HUD loss: N/A

Underwriting deficiencies:
   • Credit report contained disputed items
   • Appraisal not reviewed properly
   • Secondary lien shown as a gift
   • Secondary lien shown in borrower’s reserves

Summary:
Borrower’s Credit Report Contained Disputed Items
The borrower’s revised credit report, dated July 13, 2009, contained five disputed items. Of the
five disputed items, one was a closed credit item, and one was a foreclosure. FHA required
PrimeLending to manually underwrite loans when the credit report containing disputed items. 20
For instance, if PrimeLending had manually underwritten this loan, it would have had to
document and explain compensating factors associated with exceeding HUD’s underwriting
ratios. For this loan, the front end ratio totaled 35 percent and the back end ratio income totaled
48 percent exceeding HUD’s manual underwriting ratio standard of 31 and 43 percent,
respectively. PrimeLending did not manually underwrite this loan as required by the TOTAL
scorecard manual.

Appraisal Not Reviewed Properly
PrimeLending did not properly review the appraisal. The appraisal contained inconsistencies for
the number of rooms and did not deduct for differences in the site sizes.

Secondary Lien Shown as a Gift
PrimeLending showed the secondary lien from the Texas Department of Housing and
Community Development as a gift on the desktop underwriter report. This lien incorrectly
increased the assets of the borrower. FHA regulations prohibit secondary financing from being
used as gift funds toward the borrower’s minimum required investment. 21

Secondary Lien Shown in Borrower’s Reserve
PrimeLending showed the secondary lien in the reserves of the borrower on the desktop
underwriting report. Without the inclusion of the secondary lien, the borrower maintained only
20
     Ibid
21
     TOTAL Mortgage Scorecard User Guide, page 18


                                                    33
$840 in reserves. Although FHA does not require a reserve amount for single-family loans, this
loan was underwritten with TOTAL Mortgage Scorecard, which included reserves as an element
in its evaluation. The borrower’s debt-to-income ratio including the house payment was 48
percent without the secondary lien’s inclusion.




                                              34
                    Case Narrative – Loan Number 493-9572318

Mortgage amount: $136,972
Date of loan closing: April 13, 2010
Status as of November 30, 2011: Special forbearance
Payments before first default: Two
Total claim paid: $200—special forbearance
HUD loss: N/A

Underwriting deficiencies:
   • Credit card debt payoff not in file

Summary:
Credit Card Debt Payoff Not in File
The borrower’s credit report, dated March 12, 2010, contained credit card debt of $2,039 that
was not paid off before closing. FHA required PrimeLending to include in total debt all debts
listed on credit report. 22 Also, the desktop underwriting findings report stated that evidence of
the debt payoff must be included in the file. PrimeLending was responsible 23 for obtaining all
documentary requirements to originate this loan. The file contained no evidence that the
borrower paid off the debt.




22
     TOTAL Mortgage Scorecard User Guide, Liabilities, section VI, page 9.
23
     Ibid., page 1


                                                      35
                 Case Narrative – Loan Number 492-8492165

Mortgage amount: $163,975
Date of loan closing: July 31, 2009
Status as of November 30, 2011: Legal action to commence foreclosure
Payments before first default: Two
Total claim paid: $0
HUD loss: N/A

Underwriting deficiencies:
   • Loan application was completed incorrectly
   • Coborrowers’ assets included property purchased
   • Coborrowers’ payroll was not sufficiently documented
   • Appraisal contained two comparables more than 6 months old

Other deficiencies
   • PrimeLending did not obtain required credit report during early default review

Summary:
Loan Application Was Completed Incorrectly
PrimeLending marked both the initial and final loan applications incorrectly. The loan
applications showed that the coborrowers would be owner occupants, but they never intended to
reside at the property as it was purchased for the mother of one of the coborrowers. The
coborrowers already had an FHA loan on the property they occupied. PrimeLending stated that
it incorrectly marked the loan applications.

Coborrowers’ Assets Included Property Purchased
The coborrowers’ assets on the loan application included the property purchased. By including
the purchased asset, the coborrowers’ assets to liability increased. PrimeLending stated that the
problem was caused by a data entry error. With the inclusion of the purchased property in the
net worth, the coborrowers’ net assets totaled $141,985, and without the inclusion of the property
purchased, the net worth was $2,985.

Coborrowers’ Payroll Was Not Sufficiently Documented
FHA’s loan file contained only one 2-week payroll record as income documentation, a duplicate
of that 2-week payroll documentation, and a verification of current employment. The desktop
finding report required 1 full month’s earnings and current employment verification.
PrimeLending claimed that a data entry error caused it to not obtain the full month’s payroll
documentation.




                                               36
PrimeLending Did Not Obtain Required Credit Report during Early Default Review
PrimeLending did not obtain a required credit report during its early default review for this loan.
PrimeLending’s January 2010 quality control plan required it to obtain a credit report for loans
that defaulted within the first six payments. PrimeLending stated that it obtained a credit report
but did not upload the report to the loan file. Because of the age of the report, the credit
reporting company could not recreate it. There was no documentation showing that
PrimeLending obtained the credit report as required.




                                                37
                Case Narrative – Loan Number 511-0178080

Mortgage amount: $158,385
Date of loan closing: June 29, 2010
Status as of November 30, 2011: Reinstatement after loss mitigation intervention
Payments before first default: Three
Total claim paid: $750—loan modification
HUD loss: N/A

Underwriting deficiencies:
   • Credit report contained disputed items


Summary:
Borrower’s Credit Report Contained Disputed Items
The borrower’s revised credit report, dated April 5, 2010, contained a disputed item. FHA
required PrimeLending to manually underwrite loans when the credit report containing disputed
items. 24 PrimeLending did not manually underwrite this loan.




24
     Ibid


                                              38
                 Case Narrative – Loan Number 492-8634079

Mortgage amount: $132,023
Date of loan closing: December 17, 2009
Status as of November 30, 2011: Reinstatement after loss mitigation intervention
Payments before first default: One
Total claim paid: $750—loan modification
HUD loss: N/A

Underwriting deficiencies:
   • Credit report contained disputed items

Summary:
Borrower’s Credit Report Contained Disputed Items
The borrower’s revised credit report, dated October 2009, contained three disputed items. The
disputed items included a bankruptcy filed in July 2005. The loan file contained an explanation
for one disputed item. The borrower stated that the late payments were a result of illness. FHA
required PrimeLending to manually underwrite loans when the credit report containing disputed
items. 25 For instance, if PrimeLending had manually underwritten this loan, it would have had to
document and explain compensating factors associated with exceeding HUD’s underwriting
ratios. For this loan, the front end ratio totaled 33 percent and the back end ratio income totaled
56 percent exceeding HUD’s manual underwriting ratio standard of 31 and 43 percent,
respectively. PrimeLending did not manually underwrite this loan as required by the TOTAL
scorecard manual.




25
     Ibid


                                                39
                   Case Narrative – Loan Number 511-0074780

Mortgage amount: $131,410
Date of loan closing: December 30, 2009
Status as of November 30, 2011: Preforeclosure sale completed
Payments before first default: Three
Total claim paid: $750—loan modification; $80,237—preforeclosure sale, loss mitigation
HUD loss: N/A

Underwriting deficiencies:
   • Credit report contained disputed items
   • Appraisal was not reviewed properly

Summary:
Borrower’s Credit Report Contained Disputed Items
The borrower’s credit report, dated December 2010, contained four disputed items. FHA
requirements state that any credit report containing disputed items must be manually
underwritten. 26 . PrimeLending did not manually underwrite this loan as required by the TOTAL
scorecard manual. If PrimeLending manually underwrote this loan it would at a minimum have
had to document and explain compensating factors associated with exceeding HUD’s
underwriting ratios. For this loan, both the front end and back end ratios totaled 47 percent
exceeding HUD’s manual underwriting ratio standard of 31 and 43 percent, respectively.

 Appraisal Was Not Reviewed Properly
PrimeLending did not properly review the appraisal. The appraisal contained inconsistencies for
the number of rooms and did not make adjustments for the site size and age of property. HUD-
FHA requirements state that PrimeLending is responsible for properly reviewing the appraisal. 27




26
     Ibid
27
     HUD Handbook 4155.1, chapter 4-1, paragraph (e)


                                                       40
                Case Narrative – Loan Number 493-9219962

Mortgage amount: $124,503
Date of loan closing: July 24, 2009
Status as of November 30, 2011: Reinstated by borrower without loss mitigation claim
Payments before first default: Three
Total claim paid: $0
HUD loss: N/A

Underwriting deficiencies:
   • Credit report contained disputed items

Summary:
Borrower’s Credit Report Contained Disputed Items
The borrower’s credit report, dated June 15, 2009, contained three disputed items. FHA required
PrimeLending to manually underwrite loans when the credit report containing disputed items. 28
For instance, if PrimeLending had manually underwritten this loan, it would have had to
document and explain compensating factors associated with exceeding HUD’s underwriting
ratios. For this loan, the front end ratio totaled 33 percent exceeding HUD’s manual
underwriting ratio standard of 31 percent. PrimeLending did not manually underwrite this loan
as required by the TOTAL scorecard manual.




28
     Ibid


                                              41
                  Case Narrative – Loan Number 493-9075326

Mortgage amount: $111,836
Date of loan closing: April 29, 2009
Status as of November 30, 2011: Delinquent
Payments before first default: Four
Total claim paid: $0
HUD loss: N/A

Underwriting deficiencies:
   •                       Loan file lacked documentation supporting debt omission

Summary:
Loan File Lacked Documentation Supporting Debt Omission
The borrower’s credit report, dated January 27, 2009, contained a credit card debt of $1,292.
The desktop underwriting findings report acknowledged the omission of the credit card account
from the underwriting analysis during liability reconciliation, but it required documentation that
supported the omission. PrimeLending’s responsibility, according to HUD-FHA regulations, 29
required obtaining all documentary requirements to originate this loan. The file contained no
supporting documentation to exclude the debt.




29
     TOTAL Mortgage Scorecard User Guide, page 1


                                                   42
